      Department of Homeland Security





        Personnel Security and Internal Control at TSA’s 

        Legacy Transportation Threat Assessment and 

                     Credentialing Office





OIG-13-05                                         October 2012

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                           October 26, 2012


MEMORANDUM FOR:               The Honorable John S. Pistole
                              Administrator
                              Transportation Security Administration

FROM:                         Charles K. Edwards
                              Acting Inspector General
                                                              0  _J ~ J r,4
                                                              ~.fo? ~ ~

SUBJECT:                      Personnel Security and Internal Control at TSA's Legacy
                              Transportation Threat Assessment and Credentialing Office

Attached for your information is our final report, Personnel Security and Internal Control at
TSA's Legacy Transportation Threat Assessment and Credentialing Office. We incorporated
the formal comments from the Transportation Security Administration (TSA) in the final
report.

The report contains eight recommendations aimed at improving legacy Transportation
Threat Assessment and Credential Offices. TSA concurred with seven recommendations
and did not concur with one recommendation. As prescribed by the Department of
Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector
General Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Based on information provided
in TSA's response, we consider Recommendations 1 and 2 closed and resolved . No further
reporting concerning these is necessary. We consider Recommendations 3 through 7 open
and resolved . Recommendation 8 is open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility for the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Deborah L. Outten-Mills, Acting
Assistant Inspector General, at (202) 254-4015, or Marcia Moxey Hodges, Chief Inspector, at
(202) 254-4202.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
        

Executive Summary............................................................................................................. 1 

        

Background ......................................................................................................................... 2 

        

Results of Review ................................................................................................................ 8 

        

       Personnel Security Uses Appropriate Standards and Is Improving Timeliness ...... 9 

       Recommendations ................................................................................................ 12 

       Management Comments and OIG Analysis .......................................................... 12 

        

       Secure Flight and the Adjudication Center Have Addressed Some Internal Control 

       Issues, but Additional Changes Could Improve Adjudication Center Program 

       Oversight............................................................................................................... 13 

       Recommendation.................................................................................................. 16 

       Management Comments and OIG Analysis .......................................................... 16 

        

       Secure Flight Staffing and Supervisory Structure Is Inefficient ............................ 17 

       Recommendation.................................................................................................. 19 

       Management Comments and OIG Analysis .......................................................... 19 

        

       Legacy TTAC Needs To Develop a Shared TSA Culture ......................................... 20 

       Recommendation.................................................................................................. 23 

       Management Comments and OIG Analysis .......................................................... 23 

        

       Poor Managerial Practices at Legacy TTAC Must Be Addressed .......................... 23 

       Recommendations ................................................................................................ 31 

       Management Comments and OIG Analysis .......................................................... 31 

        

       The Appearance of Fairness and Accountability Is Necessary for TSA’s 

       Restructuring Initiative ......................................................................................... 32 

       Recommendation.................................................................................................. 34 

       Management Comments and OIG Analysis .......................................................... 34 

        

Appendixes
           

           Appendix A: Objectives, Scope, and Methodology ............................................ 37 

           Appendix B: Recommendations ......................................................................... 39 

           Appendix C: Management Comments to the Draft Report ............................... 40 



www.oig.dhs.gov                                                                                                      OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


      Appendix D: GAO Standards for Internal Controls............................................. 45
      Appendix E: Major Contributors to This Report ................................................ 46
      Appendix F: Report Distribution ........................................................................ 47

Abbreviations
      BMO                Business Management Office
      CSA                Customer Support Agent
      DHS                Department of Homeland Security
      EEO                Equal Employment Opportunity
      FY                 fiscal year
      GAO                Government Accountability Office
      IRTPA              Intelligence Reform and Terrorism Prevention Act
      ODNI               Office of the Director of National Intelligence
      OIG                Office of Inspector General
      OLE/FAMS           Office of Law Enforcement/Federal Air Marshal Service
      OPM                Office of Personnel Management
      PSD                Personnel Security Division
      SCI                Sensitive Compartmented Information
      SFA                Secure Flight Analyst
      TIM                Technology Infrastructure Modernization
      TSA                Transportation Security Administration
      TSA OCRL           TSA Office of Civil Rights and Liberties
      TSA OHC            TSA Office of Human Capital
      TSA PSD            TSA Personnel Security Division
      TTAC               Transportation Threat Assessment and Credentialing




www.oig.dhs.gov                                                                                   OIG-13-05
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Department of Homeland Security’s (DHS) Transportation Security Administration
(TSA) Transportation Threat Assessment and Credentialing Office was established as the
lead for conducting security threat assessments and credentialing initiatives for
domestic passengers on public and commercial modes of transportation, transportation
industry workers, and individuals seeking access to critical infrastructure. Two
programs, the Secure Flight Operations Center and the Security Threat Assessment
Operations Adjudication Center, were established to conduct case-specific adjudications
of potential threats to transportation security. In 2010, TSA initiated an administration-
wide restructuring that includes reviewing all personnel position descriptions and
realigning Transportation Threat Assessment and Credentialing Office functions under
other TSA offices.

We reviewed TSA’s oversight of personnel in the legacy Transportation Threat
Assessment and Credentialing Office. Specifically, we reviewed whether position
descriptions and background investigations are appropriate for employees’ authority
and responsibility levels. We also reviewed whether there are adequate internal
controls to provide oversight of personnel workplace activities.

We determined that TSA employee background investigations met Federal adjudicative
standards, but were not timely. The Secure Flight Operations Center and the Security
Threat Assessment Operations Adjudication Center identified potential insider threat
risks; however, limited resources weaken internal control at the Security Threat
Assessment Adjudication Center, and the shift and supervisory structure at the Secure
Flight Operation Center uses resources inefficiently.

Within the legacy Transportation Threat Assessment and Credentialing Office, there has
been a pattern of poor management practices and inappropriate use of informal
administrative processes to assess and address misconduct. We are making eight
recommendations to improve background investigations, internal controls, staffing
models, data system development coordination, and use of TSA or DHS formal
complaint processes, and to establish an independent panel for legacy Transportation
Threat Assessment and Credentialing employees to request review of reassignments.




www.oig.dhs.gov                             1                                  OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Background
TSA’s Transportation Threat Assessment and Credentialing (TTAC) Office was
established as the lead for conducting security threat assessments and credentialing
initiatives for domestic passengers on public and commercial modes of transportation,
transportation industry workers, and individuals seeking access to critical infrastructure.
Congressman Bennie G. Thompson, Ranking Member of the House Committee on
Homeland Security, requested that we review the background investigations and
suitability determinations conducted for TTAC personnel. Specifically, Congressman
Thompson requested a review of the quality, fairness, and impartiality of the clearance
and suitability system at TTAC, and how TTAC evaluates judgment, reliability, and
trustworthiness.

Our objectives were to determine whether TTAC employees have (1) position
descriptions that reflect authority and responsibility levels accurately; (2) a personnel
security screening process that complies with Federal laws, regulations, policy, and
guidance; and (3) adequate internal controls on workplace activities. While each
objective is distinct, all assess whether personnel with critical roles in transportation
security have sufficient oversight. In addition, in 2010 TSA began a restructuring
initiative that included an administration-wide review of personnel position descriptions
and a reorganization of TSA, which realigned TTAC functions among three different TSA
operational organizations. We reviewed the potential effect of these changes on
oversight of legacy TTAC personnel. To provide context for this review, we will describe
standards for personnel oversight, summarize the structure and functions of legacy
TTAC, and outline the elements of TSA’s restructuring that affect legacy TTAC.

Personnel Oversight Involves Multiple Federal, DHS, and TSA Offices

Although TSA was established through the Aviation and Transportation Security Act of
2001, with excepted service authority, standards for human capital, personnel security,
and workplace conduct are governed by a number of Federal laws, regulations, and DHS
policies for competitive service positions.1 As figure 1 illustrates, oversight of TSA
personnel involves multiple Federal, DHS, and TSA offices.




1
 P.L. 107-71. Competitive service positions are subject to the civil service laws passed by Congress and
codified under Title 5 of the United States Code. Excepted service positions are not subject to the
appointment, pay, and classification rules of the competitive service.
http://www.dhs.gov/xabout/careers/gc_1303762131481.shtm. Excepted service authorities, which apply
to TSA’s personnel management system, are cited under 49 U.S.C. § 114(n), and 49 U.S.C. § 40122.


www.oig.dhs.gov                                    2                                       OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

        Figure 1: Personnel Oversight

                                                    FEDERAL
          Office of Personnel Management
          • Human capital management
          • Personnel security programs (background investigations, national security clearances)2
          Office of the Director of National Intelligence
          • National security clearances
          • Security clearance reciprocity between Federal departments and agencies3
                                   DEPARTMENT OF HOMELAND SECURITY
          Office of the Chief Human Capital Officer
          • Human capital guidance, training
          Office of the Chief Security Officer—Personnel Security Division
          • Personnel security monitoring, guidance, and training
          Office for Civil Rights and Civil Liberties
          • Violations of civil rights and Equal Employment Opportunity standards
          Office of Inspector General
          • Allegations of misconduct, violations of civil rights and liberties
          • Program review
                               TRANSPORTATION SECURITY ADMINISTRATION
         Office of Human Capital
         • Identification of risks and sensitivities for position descriptions
         • Documentation, management of formal disciplinary actions (Office of Human Capital
              Employee Relations)
         Personnel Security Division
         • Personnel security management
         • National security clearances
         Office of Inspection
         • Allegations of misconduct
         • Program review
         Office of Professional Responsibility
         • Allegations of misconduct by senior-level employees, law enforcement officers
         • Standardization and fairness of disciplinary actions
         Office of Civil Rights and Liberties
         • Allegations of violations of civil rights and Equal Employment Opportunity standards
         Office of Civil Rights and Liberties Ombudsman
         • Mediation for TSA personnel and programs
        Source: OIG analysis.





2
 Consistent with Federal laws and regulations, and DHS and TSA policy. 

3
 Reciprocity occurs when a department or agency accepts an active clearance granted to an individual by 

a previous department or agency. 



www.oig.dhs.gov                                    3                                       OIG-13-05
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


        Federal Government Positions Require Risk and Sensitivity Designations

        All Federal Government positions require risk and sensitivity designations.
        According to DHS policy, “[t]he risk level is based on an overall assessment of the
        damage that an untrustworthy individual could cause to the efficiency or the
        integrity of DHS operations.”4 Risk levels for DHS employee positions are
        determined by the program official with hiring authority and the component’s
        human capital and personnel security offices.5 Sensitivity designations determine
        the level of public trust or access to national security information a position
        requires. DHS guidance requires a component’s sensitivity designations to be
        made by “the supervising official with sufficient knowledge of duty assignments,”
        subject to final approval by the component’s Chief Security Officer.6

        The Office of Personnel Management (OPM) provides guidance, training, and a
        Job Analysis Tool to assist department and agency human capital officials analyze
        each Federal position for risks and sensitivities; required knowledge, skills, and
        abilities; and the appropriate pay grade or pay band.7 TSA policy requires that
        each Job Analysis Tool identify risk and sensitivity designations and the
        competencies required for each employee position.8

        TSA Personnel Security Process Is Guided by Federal Law, DHS, and TSA Policy

        The position description, which results from analysis of job risks and sensitivities,
        determines how extensive a background investigation is required, what
        information must be obtained, and what criteria are used to adjudicate eligibility
        for employment. Although OPM authority for excepted service positions is more
        limited than for competitive service positions, Federal laws, DHS policies, and
        TSA policies require adherence to many OPM personnel security standards. For
        example, standards for national security clearances apply to excepted service
        employees and contractors, as well as competitive service employees. OPM
        shares oversight authority for national security clearances, including the
        application of security clearance reciprocity between Federal departments and
        agencies, with the Office of the Director for National Intelligence (ODNI).

4
  The Department of Homeland Security Personnel Suitability and Security Program, DHS Instruction 

Handbook 121-01-007, June 18, 2009, p. 14. 

5
  Ibid.

6
  Ibid., p. 20.

7
  http://www.opm.gov/hiringtoolkit/docs/jobanalysis.pdf, 

http://www.opm.gov/investigate/resources/position/Introduction.aspx. 

8
  “Policy on Determining Position Sensitivity Designations For All TSA Positions,” TSA Human Capital 

Management Policy Number 731-1, August 11, 2008, p. 4.



www.oig.dhs.gov                                     4                                         OIG-13-05
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         The Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004 and
         subsequent Executive Orders established the following Federal personnel
         security standards for timeliness, reciprocity, and case tracking:

         •	 Timeliness: IRTPA requires 90 percent of national security background
            investigations to be completed within 40 days, and adjudication of these
            background investigations to be conducted within 20 days.9 Most TSA
            background investigations are conducted by OPM or its contractors, and
            adjudications are conducted by TSA’s Personnel Security Division (PSD).

         •	 Reciprocity: IRTPA and Executive Order 13381 encourage Federal
            departments and agencies to apply reciprocity to background investigations
            conducted by other Federal departments and agencies.10 Executive Order
            13467 encourages agencies to accept favorable adjudications of
            investigations as well.11 There are exceptions to reciprocity when the
            receiving department or agency’s mission requires more stringent criteria—
            for example, a polygraph requirement or less tolerance for bad debt—than
            the sending department or agency.12

         •	 Case Tracking: IRTPA requires Federal departments and agencies to
            establish an integrated database that tracks background investigations and
            adjudications.13 To meet this requirement, OPM upgraded its database to
            enable applicants to complete background investigation forms electronically,
            provide the results to departments and agencies electronically, and track the
            outcome of adjudicative decisions. ODNI maintains a database, Scattered
            Castles, which enables departments and agencies to document and verify an
            individual’s clearance level and whether the individual is authorized access to
            Sensitive Compartmented Information (SCI).14 Most DHS components meet
            case tracking requirements through the Integrated Security Management
            System, which transfers information to and from the OPM and ODNI
9
  P.L. No. 108-458 § 3001 (2004).

10
   P.L. No. 108-458 § 3001 (2004); Executive Order 13381, “Strengthening Processes Relating to 

Determining Eligibility for Access to Classified National Security Information,” June 27, 2005.

11
   Executive Order 13467, “Reforming Processes Related to Suitability for Government Employment, 

Fitness for Contractor Employees, and Eligibility for Access to Classified National Security Information,” 

June 30, 2008; Intelligence Community Policy Guidance [ICD] Number 704.4, “Reciprocity of Personnel

Security Clearance and Access Determinations.” 

12
   Memorandum from DHS Chief Security Officer to DHS component Chief Security Officers, “Department 

of Homeland Security Reciprocity Guidelines,” June 22, 2010. 

13
   P.L. No. 108-458 § 3001 (2004).

14
   Intelligence Community Policy Guidance Number 704.5, Intelligence Community Personnel Security 

Database, Scattered Castles, October 2, 2008. 



www.oig.dhs.gov                                      5                                	        OIG-13-05
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


             databases. TSA plans to begin using the Integrated Security Management
             System in calendar year 2012.

         Internal Controls Are as Essential as Background Investigations

         Background investigations are essential to security, but personnel are only
         reinvestigated after 5 years for Top Secret access, 10 years for Secret access, or
         when job requirements change to require increased access. Internal control
         measures are therefore critical to effective oversight of personnel. The
         Government Accountability Office’s (GAO) Standards for Internal Control in the
         Federal Government provides five standards for effective internal control:
         (1) Control Environment; (2) Risk Assessment; (3) Control Activities;
         (4) Information and Communications; and (5) Monitoring.15 For example,
         elements of an effective Control Environment include managerial integrity and
         ethical values, commitment to competence, and sound human capital policies
         and practices.16 Examples of effective Control Activities include performance
         reviews, controls over information processing, and segregation of duties.17
         Additional information on internal control is provided in appendix D. As noted in
         figure 1, several TSA offices, including the Office of Inspection, Office of Civil
         Rights and Liberties (OCRL), and Office of Human Capital (OHC) Employee
         Relations, monitor internal control for TSA programs and personnel.

         Many Legacy TTAC Positions Are Designated as High Risk and Top Secret
         Sensitivity

         Two programs within TTAC were established to conduct case-specific evaluation
         of threats to transportation security, and are therefore critical to national
         security and the integrity of DHS operations. The Secure Flight Operations
         Center (Secure Flight) uses the Federal Government’s consolidated terrorist
         watch list to identify potential threats from travelers for all flights into, out of,
         and over the United States.18 Secure Flight Analysts (SFAs) require a Top Secret
         national security clearance and access to SCI information to assess potential
         matches to the Government’s consolidated terrorist watch list. The Security
         Threat Assessment Operations Adjudication Center (Adjudication Center)
         screens transportation workers against information in national security,
         immigration, and criminal databases. Most staff at the Adjudication Center

15
   GAO/AIMD-00-21.3.1 (November 1999).

16
   Ibid., pp. 8–9.

17
   Ibid., pp. 12–18. 

18
   Secure Flight Program; Final Rule, 73 Fed. Reg. 64018-64066 (Oct. 28, 2008). 



www.oig.dhs.gov                                      6                              OIG-13-05
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


      require a Secret clearance. Security clearance requirements for the remaining
      staff, listed in figure 2, range from Top Secret with SCI access for technology staff
      to Secret for administrative staff.

      Figure 2: Functions and Status of Legacy TTAC
       Secure Flight (Annapolis Junction, MD, and Colorado Springs, CO)
       • Provides passenger consolidated terrorist watch list matching for all flights into, out of, and
            over the United States.
       Adjudication Center (Herndon, VA)
       • Screens transportation workers against information in national security, immigration, and
            criminal databases.
       Vetting Operations (Colorado Springs, CO)
       • Vets transportation workers against terrorism and intelligence information.
       Technology (Annapolis Junction, MD)
       • Developed, operates, and maintains the Secure Flight data system, and data systems used
           for Adjudication Center vetting and credentialing.
       TTAC Technology Infrastructure Modernization (Annapolis Junction, MD)
       • Developing a replacement data system for the Adjudication Center.
       Security Threat Assessment Programs (Arlington, VA)
       •   Responsible for the Security Threat Assessment process, to include budget,
           acquisitions/contracts, enrollment, operations, stakeholder and customer
           coordination/communications, DHS and Office of Management and Budget acquisition
           program reporting, external agency coordination, rulemaking and regulatory compliance,
           and congressional communication. Programs include—
           • Aviation Credentialing Alien Flight Student Program, Aviation Workers Program, Crew
               Vetting Program, Federal Aviation Administration Certificate Holders, and other
               aviation credentialing programs
           • Maritime – Transportation Worker Identification Credential program
           • Surface Credentialing – Hazardous Materials Endorsement Threat Assessment
               Program, Universal Rule, and Universal Enrollment Services
           • Business requirements for future Security Threat Assessment needs for individuals
               seeking to work in freight rail, mass transit and passenger rail, as well as other
               programs requesting vetting as a service by TSA, such as chemical facilities, and
               ammonium nitrate transport
       Business Management Office (Arlington, VA)
       • Provides administrative, financial, acquisition, human capital, and information technology
           services.
      Source: OIG analysis.

      Since 2010, TSA has initiated three restructuring projects that affect TTAC
      personnel: a balanced workforce initiative; a review of all TSA position
      descriptions; and a reorganization of TSA offices.

      •	 Balanced Workforce Initiative: TSA participated in the DHS balanced
         workforce initiative to determine the proper balance of Federal and


www.oig.dhs.gov                                   7                                	       OIG-13-05
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


               contractor staff to reduce risks and costs inherent in contracts.19 As a result,
               Secure Flight has converted most of its staff to Federal employee positions.
               While the Adjudication Center conducted an assessment in preparation for
               conversion, the conversion process has not started as of August 2012.

           •	 Position Description Review (Desk Audit): TSA OHC, in consultation with
              program officials, initiated an administration-wide desk audit to determine
              whether job titles and pay bands reflect required competencies and authority
              and responsibility levels accurately.20 Positions may be downgraded when
              authorities and responsibilities do not match compensation levels, and after
              2 years pay will be reduced. Some positions may be eliminated, for example,
              for individuals in supervisory positions who do not supervise sufficient staff
              levels. When positions are eliminated, the incumbent is placed in a resource
              pool and can be assigned to another office that requires additional staff. TSA,
              however, does not plan to reduce its overall workforce during this process.

           •	 Reorganization: TSA initiated an administration-wide reorganization that
              dissolved TTAC and reassigned its functions to three TSA Assistant
              Administrators. The Adjudication Center was assigned to the Office of Law
              Enforcement/Federal Air Marshal Service (OLE/FAMS), and Programs
              excluding Secure Flight to the Office of Security Policy and Industry
              Engagement. The remaining legacy TTAC functions, including Secure Flight,
              TTAC Technology, Technology Infrastructure Modernization (TIM), and the
              TTAC Business Management Office (BMO), were assigned to TSA’s Office of
              Intelligence and Analysis. All legacy TTAC functions will remain in their
              current geographical locations.

Results of Review
The background investigations of legacy TTAC employees met Federal standards for the
quality of adjudicative decisions and reciprocity. Until 2012, however, TSA PSD did not
meet Federal timeliness standards, and clearance delays resulted in inefficient
management of Secure Flight personnel resources. Both Secure Flight and the
Adjudication Center have identified and taken measures to address potential risks to
their adjudication programs from human error or insider threats, but limited
technological resources and an insufficient number of Federal employees weaken
internal controls at the Adjudication Center. Secure Flight’s shift schedule and
supervisory structure use personnel resources inefficiently. Employees at legacy TTAC

19
     http://www.dhs.gov/ynews/testimony/20120329-mgmt-contractors-hsgac.shtm.
20
     TSA Handbook to Management Directive Number 1100.51-1, July 6, 2011, p. 16.


www.oig.dhs.gov                                    8                               	   OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


are committed to TSA’s transportation security mission and seek to fulfill TSA’s mandate
regardless of these challenges. However, perceptions of favoritism in hiring and
management, and unresolved tensions between legacy TTAC functions, hinder achieving
a shared mission.

Legacy TTAC employees have made allegations of improper conduct through formal and
informal processes, including allegations of poor management practices and violations
of Equal Employment Opportunity (EEO) standards. While all employees said they
would report national security vulnerabilities, some feared retaliation for raising other
concerns. Senior legacy TTAC leaders sought to address allegations of misconduct
through training and TTAC BMO’s informal internal administrative processes, but efforts
were not successful. For example, use of informal administrative processes did not
address or expose the extent of workplace complaints and led to internal investigations
being managed inappropriately. Employee complaints raised through TSA’s formal
grievance processes were managed and documented appropriately, but not all
employees had sufficient information to access formal redress options. Unaddressed
workplace complaints of favoritism, discrimination, and retaliation hinder TSA’s efforts
to streamline its operational structure and align compensation with appropriate
authorities and responsibilities.

        Personnel Security Uses Appropriate Standards and Is Improving Timeliness

        Employees received the appropriate level of background investigations, even
        though more than half of the Job Analysis Tools for legacy TTAC positions were
        missing the required risk and sensitivity designations. TSA PSD met Federal, DHS,
        and TSA standards for adjudicative decisions and for the application of reciprocity.
        However, until 2012, adjudications were not timely, and delays had negative
        consequences for TSA’s Secure Flight program.

        Position Descriptions Missing Job Analysis Tool Risk and Sensitivity Designations

        TSA’s Policy on Determining Position Sensitivity for All TSA Positions requires that
        each employee position description Job Analysis Tool include a risk and
        sensitivity designation, which identifies the level of background investigation
        necessary.21 Between 2007 and 2009, TSA OHC reviewed all position
        descriptions using OPM guidance. However, during our review of position
        descriptions provided by legacy TTAC BMO, 22 of the 35 Job Analysis Tools were
        missing risk and sensitivity designations, and were performed before 2008.

21
 Policy on Determining Position Sensitivity Designations for All TSA Positions, TSA Human Capital
Management Policy Number 731-1, August 11, 2008, p. 4.


www.oig.dhs.gov                                     9                                        OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Although the Job Analysis Tools did not meet TSA standards, our review of
      personnel security files indicates that employees received background
      investigations appropriate to duties and required level of access to classified
      information. Because TSA is conducting desk audits that will result in new
      position descriptions, we make no recommendations on this deficiency, as any
      recommendation would be overtaken by these efforts.

      Personnel Security Meets Federal, DHS, and TSA Standards for Adjudicative
      Decisions and Application of Reciprocity

      TSA’s personnel security program has adequate internal controls to ensure that
      adjudicators meet required standards for adjudicative decisions and reciprocity.
      TSA PSD adjudicators attend personnel security training provided for Federal
      adjudicators. In addition, adjudicators receive guidance developed by OPM,
      ODNI, Federal training programs, and DHS, as well as Aviation and
      Transportation Security Act-related guidance specific to TSA. TSA PSD
      participates in a DHS-led Personnel Security Officers’ Working Group, which
      meets quarterly to discuss changes in laws, regulations, and guidance, and can
      address any concerns about the quality and timeliness of decisions. The
      adjudicators we interviewed understood Federal, DHS, and TSA guidance on
      adjudicative standards and reciprocity. In addition, TSA PSD provides adequate
      oversight of the adjudicative process, including comprehensive adjudicative
      checklists and templates, 100 percent review of negative suitability
      determinations, and 40 percent review of positive determinations.

      We reviewed personnel security files of all senior TTAC managers and a sampling
      of other TTAC employees, and determined that TSA PSD adjudicative decisions
      met Federal, DHS, and TSA standards. The files were documented appropriately
      and included current and previous background investigations, as well as
      reinvestigations conducted by OPM and other authorized Federal departments
      and agencies. When necessary, adjudicators sought additional information and
      weighed potentially derogatory issues that would affect suitability for
      employment, such as the recency and severity of financial or misconduct issues
      and evidence of rehabilitation. For Top Secret and Secret security clearances,
      relevant issues such as the potential for foreign influence were also considered.

      TSA PSD also met guidelines for reciprocity. When reciprocity was applied, files
      included necessary documentation, including required Federal forms, Federal
      Bureau of Investigation fingerprint results, a credit check, and confirmation of a
      current security clearance from another Federal department or agency. In some
      instances, such as when an applicant had debt issues, the adjudicator accepted a


www.oig.dhs.gov                           10                                 OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      previous background investigation appropriately, but obtained additional
      information to conduct a new adjudication.

      Past Timeliness Issues Have Had a Negative Effect on Secure Flight

      TSA PSD did not meet the timeliness standard for conducting 90 percent of
      adjudications within 20 days after OPM completed its background investigations
      until the first quarter of fiscal year (FY) 2012, when personnel and organizational
      changes improved productivity. Before FY 2012, OPM delays in conducting
      background investigations and TSA PSD delays in adjudicating the results created
      a backlog, and cases that should have been completed in 2 months were taking 5
      months or longer to complete. As a result, because SFA positions require a Top
      Secret clearance and SCI access, Secure Flight managers said that SFAs without a
      clearance could fulfill only a portion of their responsibilities, which placed an
      additional burden on cleared personnel to perform necessary operational duties.

      Secure Flight managers said that TSA PSD did not appear to be actively managing
      or tracking its background investigations and that continuous followup was
      necessary to obtain clearances for many employees. In addition, managers were
      unsure why some employees with Top Secret clearances and SCI access in
      previous positions were eligible for reciprocity while others were not. Secure
      Flight managers did note that timeliness had improved recently.

      TSA PSD officials agreed that timeliness and case tracking had been problematic,
      but said they had taken aggressive actions to address the causes. Specifically, in
      the past TSA hired large groups of employees or contractors quickly, resulting in
      backlogs for existing programs, but TSA PSD has increased resources to address
      current and anticipated volume, while ensuring that a new backlog situation is
      not created in the event of similar hiring spikes in the future. TSA PSD shifted all
      personnel security responsibilities from contractors to Federal employees and
      expects to be fully staffed in late FY 2012. Adjudicator productivity goals are
      more stringent, so each adjudicator is completing more cases. In addition, TSA
      PSD has integrated the security clearance and SCI access processes better.
      Conversion to DHS’ Integrated Security Management database, scheduled to
      occur in calendar year 2012, will also improve case management and reporting.

      TSA PSD has taken measures to improve timeliness, and in the second half of
      FY 2012 has established a consistent process to meet Federal timeliness goals for
      adjudicating background investigations. In the third quarter of FY 2012,
      adjudications averaged 10 days, and in the fourth quarter adjudications are
      averaging 11 days. However, TSA PSD cannot control other sources of delay,


www.oig.dhs.gov                            11                                  OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      such as backlogged OPM background investigations. TSA PSD could provide
      programs with more information about which employees are eligible for
      reciprocity. Improved communication would enable program managers to
      coordinate the hiring process for employees who require Top Secret clearances
      and SCI access.

      Recommendations

      We recommend that the TSA Chief Security Officer:

      Recommendation #1:

      Establish a point of contact, email address, or contact number for TSA managers
      to follow up on the status of employees who require Top Secret and Sensitive
      Compartmented Information investigations or reinvestigations.

      Recommendation #2:

      Provide TSA Assistant Administrators who have employees with pending Top
      Secret and Sensitive Compartmented Information investigations and
      reinvestigations with monthly statistics on the number of cases pending, number
      of days cases have been in the system, and current backlog when applicable.

      Management Comments and OIG Analysis

      A summary of TSA’s written response to the report recommendations and our
      analysis of the response follows each recommendation. A copy of TSA’s
      response, in its entirety, is included as appendix C.

      In addition, we received technical comments from TSA and incorporated these
      comments into the report where appropriate. TSA concurred with seven
      recommendations and did not concur with one recommendation in the report.
      We appreciate the comments and contributions made by TSA.

      Management Response: TSA officials concurred with Recommendation 1. In its
      response, TSA said the Personnel Security Section has established a home page
      on the TSA intranet as the primary source of information for stakeholders
      requiring information or assistance with security clearance requests or other
      Personnel Security products and services. In addition to points of contact, email
      addresses, and phone numbers, the home page provides information regarding
      Personnel Security forms and documents, reference materials, and Frequently


www.oig.dhs.gov                          12                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      Asked Questions. TSA provided copies of the intranet pages. TSA considers this
      recommendation closed and implemented.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 1, which is resolved and closed. No further reporting
      concerning Recommendation 1 is necessary.

      Management Response: TSA officials concurred with Recommendation 2. In its
      response, TSA said that in December 2012, Personnel Security will begin using
      the DHS electronic Integrated Security Management System to record and
      manage all background investigation and security clearance information. The
      data system’s functionalities will allow for automatic, timely notifications and
      updates to stakeholders, as well as to offices within TSA that do not currently
      have access to Personnel Security information. TSA said that pending final
      transition to the Integrated Security Management System, interim measures
      have been implemented to provide case statuses through “tickler” reports. TSA
      provided examples of recent reports it provides to TSA leadership. TSA considers
      this recommendation closed and implemented.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 2, which is resolved and closed. No further reporting
      concerning Recommendation 2 is necessary.

      Secure Flight and the Adjudication Center Have Addressed Some Internal
      Control Issues, but Additional Changes Could Improve Adjudication Center
      Program Oversight

      Both Secure Flight and Adjudication Center staff identified and addressed
      potential personnel risks to their adjudication functions. For example, Secure
      Flight developed an effective data system, assigns cases randomly, segregates
      duties, and provides managerial oversight to mitigate potential risks. The
      Adjudication Center has mitigated some risks through active oversight of
      contractors and random case assignments. However, data system deficiencies
      and an insufficient number of Federal employees to segregate duties potentially
      increase internal control vulnerabilities at the Adjudication Center.

      Secure Flight Has Mitigated System and Procedural Security Risks

      According to GAO’s Standards for Internal Control in the Federal Government,
      activities such as control over information processing, segregation of duties,
      accurate and timely recording of transactions and events, and access restrictions


www.oig.dhs.gov                          13                                 OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           to and accountability for resources and records are essential to internal control.22
           Secure Flight’s procedures and its data system help provide these control
           activities. Specifically, the volume of records, lead time for vetting, random
           records assignment, data system audit trails, supervisory oversight, reliance on
           Federal employees, and segregation of duties all limit potential for insider threat
           vulnerabilities.

           To provide continuity of operations, Secure Flight has two Operation Centers,
           one in Colorado Springs and one in Annapolis Junction. The Operation Centers
           are staffed primarily with Federal employees who serve as SFAs, Supervisory
           SFAs, Customer Support Agents (CSAs), Supervisory CSAs, Watch Managers, and
           Senior Watch Managers. Records are randomly assigned between the two
           Operation Centers. The Secure Flight System automatically vets more than 14
           million airline passengers each week, from which SFAs manually compare data of
           more than 54,000 passengers to available Federal Government watch list
           records. This volume limits the chance that staff can predict which records they
           will review. The fact that aircraft operators send most passenger data to Secure
           Flight more than 72 hours before flights depart also makes it difficult for SFAs to
           predict which shift will vet a given passenger record.

           When SFAs compare passenger data to watch list records, they determine
           whether to clear a passenger or “inhibit” a passenger’s ability to print a boarding
           pass. Inhibiting a passenger requires the traveler to present identification to an
           aircraft operator employee before being granted a boarding pass. SFAs obtain
           records to analyze and mark as cleared or inhibited from an automated queue.
           The Secure Flight data system was designed with audit trails, so the system logs
           which SFA made each match determination and keeps historical data on
           previous matches.

           Additionally, Supervisory SFAs are assigned to review SFA match decisions and
           work with Watch Managers and Senior Watch Managers when a particular SFA is
           improperly clearing or improperly inhibiting records. Because most Secure Flight
           contract adjudicators were converted to Federal employees through the
           balanced workforce initiative, Secure Flight oversees the quality and quantity of
           employee work products directly and can intervene with specific corrective
           action and training when necessary.

           Most adjudications are completed without requiring passenger or aircraft
           operator employee interactions. When interaction is necessary, Secure Flight

22
     GAO/AIMD-00-21.3.1, November 1999, p. 12.


www.oig.dhs.gov                                  14                                OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      minimizes insider threats by segregating duties, and randomizing the structure of
      customer support calls and further record vetting. A passenger with an inhibited
      boarding pass cannot print the boarding pass at home or at an airport kiosk and
      must speak with an aircraft operator employee and present identification. The
      aircraft operator employee must call a general Secure Flight number for
      inhibited passengers, which is routed to the first available CSA in an automated
      queue of available agents located near one of the two Secure Flight Operation
      Centers. CSAs have scripted language to verify the caller’s authenticity and
      request additional information about the passenger. The CSA then calls the
      Operations Center, which routes callers to the next available SFA. The SFA
      speaks only with the CSA, never with the aircraft operator employee, and places
      the CSA on hold to determine when the additional information clears a
      passenger or positively identifies the passenger as a watch list match. The SFA
      communicates this information to the CSA, who uses scripted language to inform
      the aircraft operator of what action to take.

      Adjudication Center Requires Resources Comparable to Secure Flight

      Adjudication Center officials, who conduct case management review for
      immigration and criminal checks for security threat assessment programs, have
      identified and attempted to address risks and security vulnerabilities properly in
      the work contractors perform. For example, contract staff cannot access
      adjudication case management systems until they have received a Secret
      clearance and are trained on the Adjudication Center’s standards and the
      adjudication case management systems. Federal employees limit contractor
      system access so that only authorized contractors can obtain information and
      make adjudicative decisions. Cases are assigned on a first-in-first-out basis so
      that contractors cannot choose which cases they work. The volume of cases—
      between 5,000 and 7,000 a week for each major credentialing program—also
      limits the likelihood that any given contractor will be assigned a particular case.
      Federal employees actively monitor contractor performance, including the
      quality of adjudicative decisions and the accuracy of workload reports
      contractors submit.

      However, with an insufficient number of Federal employees, the Adjudication
      Center does not have the same level of internal control as Secure Flight. The
      balanced workforce initiative has not started at the Adjudication Center, and
      fewer than 20 Federal employees manage, train, and oversee approximately 50
      contractors. Federal employees are also responsible for adjudicating more
      complex cases. Federal employees routinely work overtime to manage a
      backlog, which limits the time they have to assume responsibilities for other


www.oig.dhs.gov                            15                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      employees on leave. Several employees at the Adjudication Center said that
      they do not have a backup Federal employee who can cover their work when
      they are absent.

      In addition, Adjudication Center adjudication case management systems do not
      have the same functionality as the Secure Flight case management system.
      Without a sufficient number of Federal employees, the Adjudication Center has
      not been able to segregate duties related to data management to provide
      internal control. The existing case management systems have limited
      functionality for audit trails, alerts, and automated reports. Only one Federal
      official is able to generate the workload and timeliness reports that are provided
      to DHS and Congress. The manual process by which these reports must be
      generated is so complex and labor-intensive that no other employees have been
      trained to provide backup or review. In addition, the Adjudication Center does
      not have direct access to some DHS data systems, and only one employee is
      assigned to conduct criminal and watch list systems checks at a nearby TSA
      facility. The TTAC TIM program plans to replace the existing Adjudication Center
      case management systems, but we were unable to obtain documentation to
      determine whether the new case management systems would incorporate the
      necessary internal control.

      Recommendation

      We recommend that the Assistant Administrator for the Office of Law
      Enforcement/Federal Air Marshals:

      Recommendation #3:

      Provide the Adjudication Center sufficient Federal employees to establish
      internal control over operations and reporting requirements.

      Management Comments and OIG Analysis

      Management Response: TSA officials concurred with Recommendation 3. In its
      response, TSA said that it is pursuing efforts to increase the number of Federal
      employees assigned to the Security Threat Assessment Office.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 3, which is resolved and open. This recommendation will
      remain open pending our receipt of documentation confirming that the



www.oig.dhs.gov                           16                                 OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


            Adjudication Center has sufficient Federal employees to establish internal
            control over operations and reporting requirements.

            Secure Flight Staffing and Supervisory Structure Is Inefficient

            Secure Flight’s rotating shift schedule is not aligned with its operational
            requirements, and its supervisory structure is unnecessarily complex. For
            example, equally sized teams work each shift, even though fewer employees are
            needed during off-peak air carrier travel periods. All Secure Flight staff work an
            overlapping shift 1 day each week, which is an inefficient use of human capital
            resources. In addition, the Secure Flight supervisory structure limits personal
            interaction between supervisors and employees. Supervision of CSAs, SFAs, and
            Watch Managers is divided between the Annapolis Junction and Colorado
            Springs locations, resulting in supervisors rating employees without firsthand
            knowledge of their work because a supervisor is in one location, but direct
            reports are in another.

            Secure Flight Rotating Shifts Are Not Aligned With Operational Requirements

            According to GAO guidance, “[i]nternal control should provide reasonable
            assurance that the objectives of the agency are being achieved in the …
            [e]ffectiveness and efficiency of operations including the use of the entity’s
            resources.”23 In 2011, Secure Flight managers introduced a shift schedule in
            which fixed teams of SFAs and CSAs rotate together every 8 weeks to cover 6
            shifts. The rotating schedule is not aligned with Secure Flight’s operational
            requirements. For example, because Secure Flight receives most records from
            air carriers more than 72 hours before flights depart, the day shift could conduct
            most vetting within 24 hours of receipt. While Secure Flight watch list vetting
            requires some real-time interaction with air carrier employees, CSAs on night
            shifts said that they receive relatively few calls. Even though Secure Flight must
            be staffed at all times to manage international flights and domestic airports that
            are open overnight, maintaining the same number of employees on night and
            day shifts may indicate an unnecessary expenditure of night differential pay.

            Moreover, with teams on a 4-day schedule, teams overlap each Wednesday, as
            half the teams work from Sunday to Wednesday, and half from Wednesday to
            Saturday. With each team on a 10-hour shift, shifts overlap every day between
            6:00 and 6:30 a.m., 1:00 and 4:30 p.m., and 8:00 and 11:00 p.m. Figure 3 shows
            that on Wednesdays, both teams and shifts overlap. As a result, staff at

23
     Ibid., pp. 4–5.


www.oig.dhs.gov                                 17                                 OIG-13-05
                                       OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


             Annapolis Junction said that there is often no place to sit on Wednesdays, and
             the workload is quickly depleted. Staff who had worked in other operations
             centers said that some law enforcement and intelligence departments and
             agencies use this scheduling model to provide staff training time, but SFAs do
             not require the same level of ongoing physical, operational, or substantive
             training as these entities. Further, Watch Managers reported having difficulty
             obtaining permission for staff to take advantage of available free or low-cost
             training. The overlap of both teams and shifts is, therefore, an inefficient use of
             human capital resources.

             Figure 3: Number of Personnel on Each Secure Flight Shift
                                                Number of Staff on Each Secure Flight Shift

                                       Sun-Tues Teams       Wed (Teams Overlap)            Thurs - Sat Teams

                                                44
                                                                                 42                                 42
                    45
                    40
                    35
                    30                                                                                         24
                              22           23                   22
                    25                               21                     21        21          20
                                                                                                                         18
                    20
                         13                                          12
                    15                                     10                                11
                                   9                                                                   9
                    10
                     5
                     0
                          Shift 1:       Shifts 1 & 2:     Shift 2:        Shifts 2 & 3:      Shift 3:      Shifts 3 & 1:
                         11:00pm -        6:00am -        6:30am -          1:00pm -         4:30pm -         8:00pm -
                          6:00am        6:30am (Shift     1:00pm          4:30pm (Shift       8:00pm          11:00pm
                                          Overlap)                          Overlap)                       (Shift Overlap)

             Source: TSA Secure Flight Operations Center.

             Direct Supervision Could Improve Secure Flight Management

             According to GAO guidance, establishing a positive attitude toward internal
             control and conscientious management requires that management “identify
             appropriate knowledge and skills needed for various jobs and provide needed
             training, as well as candid and constructive counseling and performance
             appraisals.”24 However, the supervisory structure at Secure Flight limits personal
             interaction between supervisors and direct reports because supervisors are
             located at different Operation Centers.


24
     Ibid., p. 8.


www.oig.dhs.gov                                             18                                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      As of July 2012, Supervisory CSAs, SFAs, and Watch Managers supervise staff
      both locally and remotely. Supervisory Watch Managers fly between the Secure
      Flight locations to meet with direct reports, but lower level supervisors may not
      have this opportunity. Many of the employees and supervisors we interviewed
      said that supervisors cannot rate remotely stationed staff work performance
      accurately. Some supervisors said that they rely on local second-line supervisors
      when rating remote direct reports. In addition, Colorado Springs begins each
      shift 2 hours later than Annapolis Junction, so supervisors must make operational
      decisions for employees who are not direct reports. While it may be necessary
      for Senior Watch Commanders to supervise some staff at each location, local
      supervision for other employees would enable supervisors to assess and counsel
      direct reports more accurately and efficiently, and improve overall internal
      control.

      Recommendation

      We recommend that the Assistant Administrator for the TSA Office of
      Intelligence and Analysis:

      Recommendation #4:

      Develop a restructuring plan to enhance operational effectiveness in the Secure
      Flight Operations Center staffing model.

      Management Comments and OIG Analysis

      Management Response: TSA officials concurred with Recommendation 4. In its
      response, TSA said that the Secure Flight Operations Center has made significant
      changes and implemented new programs and schedules to address many of the
      issues identified. TSA said that these modifications include schedule changes
      based on employee feedback, structural changes to improve communication and
      enhance career and role progression, internal and external training programs to
      support in-position refresher courses and knowledge development opportunities,
      and more structured use of employee overlap time. TSA provided examples of
      modifications it has made, which included a training program, career progression
      goals, and a review of the supervisory structure.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 4, which is resolved and open. This recommendation will
      remain open pending the receipt of documentation confirming that the Secure



www.oig.dhs.gov                          19                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


      Flight Operations Center has analyzed and addressed the concerns we identified
      in our report. Specifically, the documentation should include the following:

         •	 Data supporting the conclusion that call volume distribution is relatively
            consistent across 24-hour periods.

         •	 Data supporting the conclusion that maintaining an equal number of
            Secure Flight Analysts on each shift, and the night differential pay this
            entails, is operationally effective.

         •	 Analysis that led to the conclusion that the level of training proposed to
            justify overlapping work schedules is appropriate to Secure Flight’s
            operational requirements. TSA’s response appears to indicate that staff
            at the Secure Flight Operations Center would be receiving extensive
            training every second Wednesday. Analysis should include how this level
            of training compares with that provided to other TSA employees with
            similar positions, such as adjudicators at the Adjudication Center, and
            intelligence analysts in TSA’s Office of Intelligence and Analysis.

         •	 Organizational charts that demonstrate that the Secure Flight Operations
            Center has taken measures to reduce the level of cross-site supervision.

      Legacy TTAC Needs To Develop a Shared TSA Culture

      Legacy TTAC employees are committed to TSA’s transportation security mission
      and seek to fulfill TSA’s mandate regardless of work environment challenges.
      However, many employees perceive that there is favoritism in hiring practices at
      legacy TTAC, and that hiring and personnel management decisions are not based
      consistently on competence, skill, or ability. Legacy TTAC offices have difficulty
      working cooperatively with each other, and unresolved tensions hinder achieving
      a shared mission.




www.oig.dhs.gov                           20                           	      OIG-13-05
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


          TTAC Hiring and Management Perceived as Influenced by Favoritism

          According to GAO guidance, “[m]anagement and employees should establish and
          maintain an environment throughout the organization that sets a positive and
          supportive attitude toward internal control and conscientious management.”25
          This includes, but is not limited to (1) integrity and ethical values maintained and
          demonstrated by management and staff; (2) management’s commitment to
          competence; and (3) appropriate practices for hiring, orienting, training,
          evaluating, counseling, promoting, compensating, and disciplining personnel.26

          Legacy TTAC employees said that they are committed to TSA’s transportation
          security mission and seek to fulfill TSA’s mandate, regardless of work
          environment challenges. However, more than 66 percent of the employees we
          interviewed at Annapolis Junction and TSA headquarters raised concerns about
          workplace favoritism, or mentioned their personal connections and relationships
          to TTAC coworkers from prior employment.

          Employees said that some senior managers hired staff primarily from the
          departments, agencies, or industries where they had worked before TSA. Many
          employees said that hiring and personnel management decisions were based
          more on personal connections and relationships than on competence, skill, or
          ability. Further, during the past 4 years some employees with extensive TSA or
          DHS experience were removed from their positions. Some were not given new
          job assignments or responsibilities, and had to initiate work from managers in
          other program areas. Assessing allegations of favoritism is difficult, but the Job
          Analysis Tools for TTAC demonstrated a pattern of positions written for specific
          individuals, as identified by a person’s name or initials on the position description.
          Some of these positions required overly specific qualifications, and some did not
          identify authorities and responsibilities to justify designated pay band levels.

          Developing a Shared TSA Culture Would Benefit Legacy TTAC’s Mission

          According to GAO guidance, “[a] good internal control environment requires that
          the agency’s organizational structure clearly define key areas of authority and
          responsibility and establish appropriate lines of reporting.”27 Unresolved
          tensions between legacy TTAC offices and unclear lines of authority and
          responsibility have hindered developing a shared mission. The most notable

25
   Ibid., p. 8.
26
   Ibid., pp. 8–9.
27
   Ibid., p. 9.


www.oig.dhs.gov                                 21                                   OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      challenge we identified was between TTAC Technology, which built and
      maintains existing data systems, and TTAC TIM, which is building a replacement
      data system for the Adjudication Center.

      A cooperative relationship between legacy TTAC Technology and TIM is
      necessary for the Adjudication Center data system replacement projects to
      attain intended outcomes. Throughout the data system development process,
      TSA will need to monitor contractors to ensure that technical requirements,
      including requirements to develop data system internal controls, are met. After
      the new data system is operational, it will be necessary to phase out existing
      data systems, and for TTAC Technology to assume operation and maintenance of
      the new system.

      However, TTAC Technology and TIM personnel question each other’s
      competence, skill, and ability, and managers have been unable to agree on
      authorities and responsibilities between the two programs. In TSA, authority
      and responsibility for specialized technology functions is limited to technology
      offices such as the TSA Office of Information Technology and TTAC Technology.
      TIM is authorized to hire employees only in generalist positions, such as program
      analyst positions, but TIM officials have been hiring employees with technical
      backgrounds into program analyst positions in an attempt to develop the data
      systems without technical expertise from Technology. Several TSA officials
      expressed concern about TIM’s ability to conduct contract oversight without an
      effective working relationship with Technology. Although a portion of the TIM
      database is projected to be operational in calendar year 2013, we could not
      identify plans to phase out existing data systems or integrate Technology in
      operating or maintaining the new system.

      TSA senior leadership has not established clear lines of authority and
      responsibility to integrate shared Technology and TIM functions. Several senior
      managers from legacy TTAC offices said that the previous TTAC Assistant
      Administrator fostered tension between the two programs by not clearly
      defining lines of authority and resource allocation. There has also been a history
      of personal antagonisms between senior managers in the two programs,
      including an official complaint, and a separate dispute that resulted in one
      program moving its staff out of a shared workspace. While officials in both
      programs said that they continue to make efforts to work cooperatively, we are
      concerned that these attempts to resolve differences are not focused on
      replacing the Adjudication Center data systems in an efficient and effective
      manner. A new TIM data system is necessary to address internal control
      weaknesses in the Adjudication Center’s transportation worker vetting and


www.oig.dhs.gov                           22                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      credentialing programs. Ongoing active oversight by senior leadership of TSA’s
      Office of Intelligence and Analysis, which assumed responsibility for Technology
      and TIM after TSA’s reorganization, would be prudent to improve planning and
      implementation efforts.

      Recommendation

      We recommend that the Assistant Administrator for the TSA Office of
      Intelligence and Analysis:

      Recommendation #5:

      Coordinate with both the Director of TIM and the Director of legacy TTAC
      Technology and oversee the development of the TIM data system and the
      decommissioning of legacy TTAC data systems.

      Management Comments and OIG Analysis

      Management Response: TSA officials concurred with Recommendation 5. In its
      response, TSA said that at the direction of the Assistant Administrator for the
      Office of Intelligence and Analysis, senior managers from TIM and Technology
      initiated a plan to put protocols in place that will ensure that the two Divisions
      maximize the resources in both organizations and effectively support the
      successful design and development of the TIM system. TSA said that to a great
      degree, the plan will follow the model successfully applied to other design,
      development, and implementation efforts. In addition, TSA said that the
      Assistant Administrator for the Office of Intelligence and Analysis chairs a
      monthly Executive Steering Committee Review, a monthly Program
      Management Review, and biweekly teleconference calls. These measures
      enable key DHS and TSA stakeholder organizations to provide input and
      oversight during the development of the TIM system.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 5, which is resolved and open. TSA should provide quarterly
      progress reports, and we will close this recommendation when the TIM data
      system has been implemented and legacy TTAC data systems decommissioned.

      Poor Managerial Practices at Legacy TTAC Must Be Addressed

      Legacy TTAC employees have made allegations of improper conduct through
      formal and informal channels. These included allegations of poor management


www.oig.dhs.gov                           23                                 OIG-13-05
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


             practices as well as violations of EEO standards, and some employees feared
             retaliation for raising such concerns. Senior legacy TTAC leaders sought to
             address misconduct through training and informal TTAC BMO internal
             administrative processes, but efforts were not successful. The use of informal
             administrative processes did not address or expose the extent of workplace
             complaints and led to inappropriately managed internal investigations.
             Employee complaints raised through TSA’s formal grievance processes were
             managed and documented appropriately, but not all employees had sufficient
             information to access formal redress options.

             Pattern of Allegations Regarding Inappropriate Human Capital Practices

             According to GAO guidance, human capital practices are a factor in effective
             internal control, and include “establishing appropriate practices for hiring,
             orienting, training, evaluating, counseling, promoting, compensating, and
             disciplining personnel.”28 As noted in figure 4, we obtained testimony or
             documentary evidence that indicates weaknesses in each of those areas in
             legacy TTAC. The type and extent of difficulties vary, and challenges differ
             between offices. For example, some offices trained and supervised contracting
             officer representatives adequately, and other offices did not. However, all
             offices have been affected to some degree by weak human capital practices.




28
     Ibid.


www.oig.dhs.gov                                 24                                 OIG-13-05
                                     OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

             Figure 4: Weaknesses in Human Capital Practices

              Hiring
              • Favoritism in hiring former colleagues from certain departments, agencies, and
                  industries
              Orienting
              • Contracting officer representatives without adequate training and supervision
              Training
              • Unequal access to professional development through training and details
              Counseling
              • Inappropriate informal or open-ended disciplinary measures
              • Reprimands for individuals in front of their peers or subordinates
              • Low performance ratings not tied to documentation or counseling
              • Failure to counsel individual employees for consistently poor performance
              • Criticism of whole teams instead of counseling individuals on persistent errors
              Promoting
              • Promotions that displace an incumbent without a performance-related reason
              • Reorganization to promote staff without open competition
              Compensation
              • Different salaries and raises for comparable experience and performance
              • Misapplication of Federal cost-of-living locality supplements
              • Failure of supervisors to submit required paperwork for pay increases
              Discipline
              • Avoidance of formal disciplinary processes
              • Encouraging employees to file complaints against individuals out of favor with
                  management
             Source: OIG analysis.

             Pattern of Allegations of Workplace Bullying and Hostile Work Environment

             According to GAO guidance, one factor in effective internal control is “the
             integrity and ethical values maintained and demonstrated by management and
             staff.”29 GAO notes that the quality of management plays a key role in “setting
             and maintaining the organization’s ethical tone, providing guidance for proper
             behavior, removing temptations for unethical behavior, and providing discipline
             when appropriate.”30 Through interviews with employees and TSA and DHS
             officials involved in civil rights and EEO grievance processes, and a review of
             pertinent documents, we determined that employees have made allegations of
             misconduct through formal and informal processes. These allegations include
             workplace bullying, a hostile work environment, and discrimination based on
             gender, race, religion, age, and disability. Allegations also involve difficulty

29
     Ibid., p. 8.
30
     Ibid.


www.oig.dhs.gov                                      25                                OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      obtaining reasonable accommodation for medical conditions, and supervisors
      who did not protect the privacy of employees with medical conditions.

      Some legacy TTAC employees told us they had witnessed or experienced such
      misconduct, but had not reported it because they believed there would be
      retaliation or damage to their careers. Some employees said that they faced
      retaliation when raising questions about management decisions, defending their
      colleagues or subordinates who had raised such questions, or after filing a formal
      or informal complaint. We determined many of these allegations to be credible,
      based on specific detail, corroborating testimony, and documentation. Notably,
      even employees who raised concerns about retaliation said that they would not
      hesitate to report national security vulnerabilities, regardless of the consequences.

      TTAC Leadership Sought to Address Deficiencies Through Training

      Senior legacy TTAC leadership was aware of many allegations related to
      improper supervisory practices and EEO violations, and sought to address these
      deficiencies through training. TTAC employee training sessions on EEO and
      diversity were held in 2009, 2010, and 2011. Team-building training was
      provided in 2011 to a TTAC office with the highest incidence of EEO complaints.
      In addition, there was leadership training for managers and team leads in 2011,
      and in March 2012 more supervisory training was provided. Given that incidents
      have continued since those trainings, we conclude that training has had little
      effect on changing behavior or improving improper supervisory practices.

      TTAC BMO Did Not Address or Expose the Extent of Worksite Problems

      TTAC BMO internal administrative processes were also used to informally
      address complaints. TTAC employees were told to raise complaints with TTAC
      BMO rather than directly with TSA’s OCRL, OHC Employee Relations, or the
      Ombudsman. This informal process led to confusion about the status of
      complaints, as TTAC BMO’s record-keeping system does not provide requisite
      specificity and formal operating procedures. In addition, TTAC BMO employees
      are not required to have competency or formal training to address allegations of
      misconduct. As a result, in at least two cases, internal investigations were
      managed inappropriately. In contrast, employee complaints raised through TSA
      formal processes, such as TSA OCRL, were managed and documented
      appropriately.




www.oig.dhs.gov                            26                                  OIG-13-05
                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Some TTAC Employees Are Unaware of Official Administrative and Judicial
           Remedial Processes

           TSA is required by law to [m]ake “written materials available to all employees ...
           informing them of the variety of ... administrative and judicial remedial
           procedures available to them and prominently post[ing] such written materials
           in all personnel and EEO offices and throughout the workplace.”31 According to
           TSA policy, the only way to file an EEO complaint is for employees to communicate
           directly with TSA OCRL. Although information on formal remedial procedures is
           available through internal TSA websites that handle complaint processes, we did
           not observe TSA OCRL or Ombudsman materials posted in Annapolis Junction
           common areas. In addition, some TTAC employees were unaware of the official
           complaint process, how to contact TSA’s OCRL, the Ombudsman, or OHC
           Employee Relations, or where to direct complaints or grievances about
           employment issues.

           We identified multiple cases of TTAC employees who called or wrote to TTAC
           BMO with EEO and other workplace allegations, which TTAC BMO should have,
           but did not, refer to official TSA processes. In some cases, TTAC employees
           believed that these calls or written allegations constituted a formal complaint
           that would be investigated by an official body, such as TSA’s OCRL, OHC
           Employee Relations, or Office of Inspection. Employees who reported
           allegations to TTAC BMO expressed frustration after being told that the matter
           was investigated and closed, with no other information available.

           Based on interviews with and document requests to TSA’s OCRL, the
           Ombudsman, and Office of Inspection, we determined that these offices did not
           receive most of the allegations employees believed had been referred by TTAC
           BMO to an official TSA process. By law, TSA OCRL documents all pre-complaints
           (initial contacts with employees about workplace concerns or allegations),
           regardless of merit or whether the employee files a formal complaint.32 TSA
           OCRL officials explained that a BMO referral of an allegation would have been
           documented as part of the pre-complaint process. TSA OCRL’s pre-complaint
           and complaint records indicate that no TTAC BMO EEO allegations were referred.
           TTAC BMO should have reported allegations related to EEO or discriminatory
           practices to TSA’s OCRL or OHC Employee Relations. Many of the allegations
           submitted to TTAC BMO involved senior-level employees in K and L Band
           (General Schedule-15 equivalent) positions.

31
     29 C.F.R. §1614.102(b)(5).
32
     29 C.F.R. 1614.104.


www.oig.dhs.gov                                27                                 OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Managing EEO Complaints Requires Human Resource Specialists and EEO
           Counselors With Specific Training

           According to GAO guidance, significant events should be authorized and
           executed only by persons acting within the specific scope of their authority.33
           None of the Job Analysis Tools for TTAC BMO employees required specific
           competency for handling EEO complaints. TTAC BMO employees who handle
           employee complaints described their positions as Human Capital Management
           or Human Resources, but were hired in program analyst positions. TTAC
           employees, including TTAC BMO employees, cited examples of inappropriate
           counseling and advice from TTAC BMO staff. Specifically, when some employees
           raised EEO issues, TTAC BMO staff counseled employees to speak with their
           manager and coached employees on what to say, asked employees if they could
           prove their claim, or encouraged employees not to file because there would be
           no benefit and the employee would “stir things up.”

           TSA OCRL officials said that TSA designates EEO counselors who are responsible
           for handling field office EEO issues. TSA provides these counselors with specific
           training on how EEO allegations should be handled and the scope of their job
           duties. In contrast, TTAC BMO employees are not required to have any specific
           knowledge, competency, or training in handling or referring EEO allegations. As
           a result, TTAC BMO employees are acting outside the specific scope of their
           authority by taking EEO complaints and counseling employees.

           Although effective internal control requires segregating duties and
           responsibilities, two key duties of TTAC BMO have not been segregated
           appropriately.34 For example, employees contact TTAC BMO staff about EEO
           allegations, and TTAC BMO also assists in TSA’s defense against formal EEO
           complaints. When an official EEO complaint is filed, TSA OCRL contacts TTAC
           BMO for assistance in processing those complaints by gathering documents and
           coordinating the official program management response. TTAC BMO staff said
           they assisted TSA management during EEO mediations “in an HR capacity.” TTAC
           BMO staff also acknowledged removing documents submitted by management
           that they perceived to be irrelevant, and advised managers about their
           responses before forwarding documents and responses to TSA’s Office of Chief
           Counsel for review. To minimize the appearance of bias and the risk of error or
           potential fraud, the duty to defend TSA management, who are subject to


33
     GAO/AIMD-00-21.3.1, November 1999, p. 14.
34
     Ibid.


www.oig.dhs.gov                                  28                               OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


            investigation, and the duty of accepting and referring TSA employee allegations,
            should be segregated among different position descriptions.

            TTAC BMO Has Conducted Inappropriate Internal Investigations

            According to GAO guidance, control environments should include sound human
            capital policies and practices, to include appropriate practices for disciplining
            personnel.35 TTAC BMO has conducted its own investigations of complaints and
            allegations among TTAC staff. In one case, a former TTAC Assistant
            Administrator assigned a subordinate K Band in TTAC BMO to review and make
            recommendations about a dispute between two higher graded L Band managers
            within TTAC. The K Band official did not receive training or guidance on
            conducting an administrative investigation, and the employee’s investigative
            report resulted in disciplinary action for one senior L Band official. To ensure
            that both the fact-finder and the employees are treated fairly and to minimize
            the appearance of bias or undue influence, this type of review and
            recommendation is handled best by an objective and trained third party from a
            separate office.

            In another internal investigation, which involved a pattern of alleged civil rights
            violations by a senior TTAC manager, several senior TTAC program officials
            believed that a formal complaint they raised with TTAC BMO had been reported
            through appropriate channels and would result in an official investigation. The
            TTAC program officials said that they decided the complaint should be formal,
            and described the formal process they followed as drafting a written complaint,
            encrypting it, sending it to TTAC managers, and providing evidence and
            statements from other senior TTAC officials to TTAC BMO. The senior program
            officials who raised the issue believed that a TSA investigation had been
            conducted. However, TTAC BMO did not refer the complaint or the individuals
            involved to TSA’s OCRL or the Ombudsman. TSA OCRL officials were unaware of
            the case, but noted that its description would merit an investigation as
            “management misconduct.”

            TTAC BMO Record Keeping Is Not Detailed Sufficiently

            As GAO identified in guidance, internal control activity includes clear
            documentation of significant events, which should be readily available for
            examination, properly managed, and maintained.36 TTAC BMO’s documentation

35
     Ibid., p. 9.
36
     Ibid., p. 15.


www.oig.dhs.gov                                 29                                  OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      of the allegations it receives is not detailed sufficiently and is incomplete. In
      response to a request for copies of allegations TTAC BMO received from staff,
      TTAC BMO provided us an informal one-page list of allegations and referrals that
      did not—

          •	   Consistently list both the complainant and the accused employee;
          •	   Include a specific or detailed description of the allegations;
          •	   Document whether the issue was referred to another office;
          •	   Track resolution or any final disposition of the complaint; or
          •	   Track whether any resolution or disposition was communicated to the
               parties involved.

      Although we requested that TTAC BMO officials provide us with copies of
      investigations they initiated, TTAC BMO did not provide any investigative
      reports. Due to insufficient legacy TTAC employee knowledge of formal
      complaint processes and poor record keeping by TTAC BMO, it was difficult to
      determine the extent and resolution of worksite allegations. Furthermore,
      because TTAC BMO did not report EEO complaints, interfered during the formal
      EEO complaint process, and managed allegations of discrimination by senior-
      level employees internally, it did not address nor expose the extent of worksite
      misconduct at legacy TTAC offices.

      Complaints From Legacy TTAC Employees Should Be Referred to TSA’s Formal
      Processes

      In contrast, TSA’s formal processes for investigating allegations of misconduct
      and discriminatory practices are professional, responsive, and transparent. TSA’s
      Office of Inspection, Office of Professional Responsibility, OCRL, and OHC
      Employee Relations manage TSA’s formal processes. These offices responded
      quickly and comprehensively to our requests for interviews and documents,
      including documentation of their inspections and investigations. The records we
      reviewed indicate that investigations were thorough, balanced, and documented
      appropriately.

      Although each TSA office that handles formal complaint processes has a website
      on the TSA intranet, the websites are not linked to each other. As a result,
      employees would need to know specific search terms or TSA’s organizational
      structure to locate relevant websites. TSA has not compiled a website or
      brochure to guide employees through all available redress options, eligibility to
      file complaints, complaint processes, or direct contact information.



www.oig.dhs.gov                           30                          	      OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Channeling legacy TTAC complaints, allegations, and disciplinary actions through
      these TSA formal processes for a minimum of 2 years is prudent, and would
      enhance transparency and resolution. Reliance on formal processes and
      centralized tracking systems would provide TSA senior management with
      information on the extent and sources of persistent workplace misconduct.
      Centralized oversight would also assist the three TSA Assistant Administrators
      who will manage legacy TTAC employees to understand and address the
      underlying causes of personnel challenges.

      Recommendations

      We recommend that the TSA Administrator:

      Recommendation #6:

      For a minimum of 2 years, direct legacy TTAC offices to refer all personnel-
      related complaints, grievances, disciplinary actions, investigations, and
      inspections to appropriate TSA or DHS offices with primary oversight
      responsibility.

      Recommendation #7:

      Provide employees a Know Your Rights and Responsibilities website and
      brochure that compiles appropriate directives on conduct, processes, and
      redress options.

      Management Comments and OIG Analysis

      Management Response: TSA officials concurred with Recommendation 6. In its
      response, TSA said that any matter affecting a TTAC legacy office, relating to
      complaints, grievances, disciplinary/adverse actions, investigations, or
      inspections, will be handled and resolved under the provisions outlined in TSA
      management directives and policies. TSA said that in accordance with these
      directives, responsibility for certain actions resides within the employee’s
      management chain. TSA said that in such limited instances, the restructuring,
      including changes in management personnel, ensures fair and impartial handling
      of such actions. Measures outlined in TSA’s Response to Recommendation 7
      provide additional means of safeguarding employee rights. Further, the time
      limitation noted in the recommendation is not necessary, as it implies that the
      related directives and policies would not apply. TSA said that the provision of



www.oig.dhs.gov                           31                                 OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


      the directives and policies is in effect indefinitely for all TSA employees, including
      employees in the legacy TTAC offices.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 6, which is resolved and open. This recommendation will
      remain open pending confirmation that TSA has implemented our
      recommendation as written, or has revised its management directives, policies,
      incident reporting methodologies, and oversight sufficiently to provide
      transparent formal processes, centralized tracking systems, and centralized
      oversight for all TSA employees. The policies, guidance, and incident reporting
      processes in place for legacy TTAC employees during our review, which
      concluded after TSA reorganized, were not sufficient to address or expose the
      extent of workplace problems. Should TSA place legacy TTAC employees under
      the oversight of the Office of Professional Responsibility, as was done for Federal
      Air Marshals following our January 2012 report, Allegations of Misconduct and
      Illegal Discrimination and Retaliation in the Federal Air Marshal Service, OIG-12-
      28, this action would be sufficient to close our recommendation. While we
      commend TSA’s interest in improving its processes for all its employees, poor
      managerial practices for legacy TTAC employees hinder the complaint reporting
      process and should be addressed promptly.

      Management Response: TSA officials concurred with Recommendation 7. In its
      response, TSA said that the Office of Civil Rights and Liberties, Ombudsman and
      Traveler Engagement would collaborate with all relevant offices to assess the
      current informational medium to implement direct access to pertinent
      information for all employees on their rights and responsibilities. TSA said that
      the Office of Civil Rights and Liberties would implement a new “Know Your Rights
      and Responsibilities” website and brochure that would compile appropriate
      directives on conduct, eligibility to file complaints, complaint processes, direct
      contact information, and redress options, with final action to be completed on
      November 22, 2012.

      OIG Analysis: We consider TSA’s actions responsive to the intent of
      Recommendation 7, which is resolved and open. This recommendation will
      remain open pending our receipt of the brochure and review of the TSA website.

      The Appearance of Fairness and Accountability Is Necessary for TSA’s
      Restructuring Initiative

      TSA is restructuring to streamline its operations. This effort is intended to align
      intelligence, law enforcement, and policy functions better, and to ensure that


www.oig.dhs.gov                            32                                   OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      employee titles and pay bands reflect job authorities and responsibilities
      properly. Employment practices in legacy TTAC offices, however, leave TSA
      exposed to grievances that could undermine these reforms. Specifically,
      irregular managerial practices and a pattern of past grievances could result in
      additional complaints of favoritism, discrimination, or retaliation.

      TSA Undergoing Workplace Realignment

      TSA is undergoing a major reorganization to streamline its organizational
      structure. Aligning legacy TTAC’s intelligence, law enforcement, and policy
      functions with the Office of Intelligence and Analysis, OLE/FAMS, and Office of
      Security Policy and Industry Engagement, respectively, is intended to create
      efficiencies and improve integration and communication. TSA’s desk audit, to
      ensure that employee titles and pay bands reflect job authorities and
      responsibilities properly, is intended to promote fairer and more uniform
      compensation. We consider these reforms necessary and appropriate.

      Legacy TTAC Employee Concerns About Fairness Should Be Addressed

      Legacy TTAC employment practices, including allegations of favoritism and EEO
      violations, as well as a practice of removing job responsibilities from employees,
      leave TSA exposed to grievances from employees who have been transferred or
      downgraded. Multiple credible grievances could undermine reforms. More than
      50 percent of the employees we interviewed believe that favoritism affects
      management decisions, and several identified changes in supervisory
      relationships during the initial stages of TSA’s reorganization that they believed
      were influenced by favoritism. Employees who have been removed from
      positions and not assigned new responsibilities are vulnerable to demotion
      during desk audits, as their duties, authorities, and responsibilities would not
      justify their pay band. Employees who raised concerns about management
      decisions, contracting practices, or EEO violations could reasonably perceive
      reassignment or demotion as a form of retaliation for their roles as complainants
      or whistleblowers.

      TSA should take measures to ensure that the restructuring process is fair for
      employees of legacy TTAC, and is perceived as transparent. Establishing an
      independent review panel whose members do not have a prior relationship with
      legacy TTAC could address concerns about fairness in staffing decisions during
      the reorganization and desk audits. The panel should report to the Office of the
      TSA Chief Human Capital Officer so that the three TSA Assistant Administrators
      who have assumed responsibility for legacy TTAC can remain impartial.


www.oig.dhs.gov                           33                                 OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


      Current and former legacy TTAC employees could request an independent
      review of reassignment or demotion to a lower pay band. Employees who
      worked at legacy TTAC from September 2009, when legacy TTAC employees first
      raised concerns about management practices with members of Congress, should
      be eligible to request review. Eligibility to request review should continue until
      the current TSA-wide desk audits and reorganizations are complete, and
      employees have sufficient information about how their final placements will
      likely affect their roles and responsibilities. Aggregating cases may enable TSA to
      identify patterns or practices of unfair decisions. More important, creating an
      independent review panel would promote objective and defensible decisions.

      Recommendation

      We recommend that the TSA Chief Human Capital Officer:

      Recommendation #8:

      Establish an independent review panel reporting to the Office of the Chief
      Human Capital Officer through which legacy TTAC employees may request a
      review of desk audits and reassignments.

      Management Comments and OIG Analysis

      Management Response: TSA did not concur with Recommendation 8. In its
      response, TSA said that it did not concur because multiple levels of controls in
      existing policy and procedures ensure independence and objectivity in the
      classification process. TSA provided specific information on these processes,
      including appeal processes. TSA said that it disagreed with the concept of a
      separate process specifically for legacy TTAC employees that would not be
      extended to other staff, as this would be an unequal application of position
      management and classification rules without legitimate cause, and would create
      an additional, unnecessary layer of review on top of avenues of review already in
      place. TSA believes its existing management directive and associated handbook
      afford legacy TTAC and all other affected employees fairness and equity in
      position management and classification.

      OIG Analysis: This recommendation was redirected from the TSA Administrator
      to the TSA Human Capital Officer. We consider TSA comments not responsive to
      the intent of Recommendation 8, which remains unresolved and open. Our
      recommendation was based on several issues which, taken together, leave TSA
      exposed to grievances that could undermine its restructuring initiative. We


www.oig.dhs.gov                           34                                  OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       determined that legacy TTAC employment practices included widespread
       perceptions of favoritism in hiring and promotion, perceptions of retaliation
       against employees who raised concerns about management decisions and EEO
       violations, and past practices of removing job responsibilities from employees
       without cause. In addition, we noted that changes in supervisory structures that
       have taken place in the reorganization process have effectively resulted in
       promotions and demotions without a transparent process to compete for
       positions. In these circumstances, a desk audit based solely on classification
       rules would not address the underlying reasons that employees have been
       moved to a lower pay band.

       Therefore, we anticipate that many employees could file EEO grievances based
       on credible concerns about past discriminatory practices and retaliation that left
       them vulnerable in the restructuring process. TSA has in other circumstances
       changed redress options for certain employees to address past personnel issues,
       for example for Federal Air Marshals following our January 2012 report,
       Allegations of Misconduct and Illegal Discrimination and Retaliation in the
       Federal Air Marshal Service, OIG-12-28. This recommendation will remain
       unresolved and open until TSA establishes an independent review panel or
       comparable process through which legacy TTAC employees may request a review
       of desk audits and reassignments.

Conclusion
Although TSA has instituted some oversight measures for personnel in legacy TTAC,
there are weaknesses that must be addressed to reduce inefficiencies and employee
misconduct, and limit the risk of insider threats. TSA PSD met Federal and departmental
standards for adjudicating background investigations and applying reciprocity, but the
lengthy process had a negative effect on the Secure Flight program. Secure Flight and
the Adjudication Center have assessed internal control risks, but the Adjudication
Center does not have the resources to mitigate some risks.

Inefficient management structures and unclear lines of authority and responsibility
hinder some legacy TTAC programs, and legacy TTAC officials have not addressed
patterns of poor management and misconduct. Legacy TTAC employees have made
credible allegations of violations of EEO standards and retaliation for raising concerns
about management practices, but the extent of misconduct is not addressed or exposed
because legacy TTAC BMO does not report allegations to appropriate TSA authorities.
These weaknesses leave TSA vulnerable to grievances as it reforms its personnel
positions and organizational structure. For the reforms to attain intended outcomes,



www.oig.dhs.gov                            35                                OIG-13-05
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


TSA should provide more information about formal complaint processes to legacy TTAC
employees and offer them a review process for transfers and position downgrades that
they will perceive as objective, fair, and transparent.




www.oig.dhs.gov                          36                               OIG-13-05
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The DHS Office of Inspector General (OIG) was established by the Homeland Security Act
of 2002 (Public Law 107-296) by amendment to the Inspector General Act of 1978. This
is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the
Department.

We initiated this review to evaluate TSA’s oversight of personnel at legacy TTAC. Our
objectives were to determine whether legacy TTAC employees have (1) position
descriptions that reflect authority and responsibility levels accurately; (2) a personnel
security screening process that complies with Federal laws, regulations, policy, and
guidance; and (3) adequate internal controls on workplace activities.

Our scope was limited to the review of personnel security decisions for legacy TTAC
employees. We reviewed only internal controls on TTAC personnel and the data
systems they access, not TTAC programs or TTAC stakeholders. Although adjudicators at
Secure Flight and the Adjudication Center make decisions on air carrier passengers and
workers who require access to transportation infrastructure, our review did not
evaluate the quality or timeliness of those decisions. We did not assess legacy TTAC
financial decisions or transportation security policies. We also did not assess the
Colorado Springs Operations Center, except in the context of the joint management of
the Secure Flight Operations Center.

We conducted fieldwork for this report from January to May 2012. We reviewed 75
TTAC personnel security files; 21 Office of Inspection files that involved legacy TTAC
programs; 2 OHC files that involved disciplinary issues; and 10 OCRL files that involved
EEO complaints. We also reviewed documentation that TSA provided to Congressman
Bennie Thompson.

We interviewed more than 80 legacy TTAC employees, and the TSA Offices of Personnel
Security; Human Resources; Professional Responsibility; and Civil Rights and Liberties;
the Ombudsman; and Traveler Engagement; as well as the DHS Offices of the Chief
Security Officer Personnel Security Division; Human Resources; Civil Rights and Civil
Liberties; and the Screening Coordination Office. In addition, we met with OPM and
ODNI officials. OPM has oversight authority for Federal personnel security programs,
and shares with ODNI oversight authority for national security clearances, including the
application of reciprocity between Federal departments and agencies.



www.oig.dhs.gov                             37                                   OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


We reviewed more than 400 TSA documents, including Personnel Security laws,
regulations, guidance, procedures, and training materials; OHC laws, regulations,
guidance, procedures, and training materials; position descriptions and Job Analysis
Tools developed for legacy TTAC positions; Office of Professional Responsibility
guidance on conduct and disciplinary actions; DHS and TSA Management Directives
related to personnel security and internal controls; TSA PSD performance metrics;
legacy TTAC laws, regulations, guidance, procedures, training materials, and
performance metrics; guidance provided to TSA personnel on conduct, disciplinary
actions, and complaint and grievance procedures; and documentation provided by
individual employees related to allegations of contracting impropriety and staff
misconduct.

We conducted this review under the authority of the Inspector General Act of 1978, as
amended, and according to the Quality Standards for Inspections issued by the Council
of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                            38                                 OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix B
Recommendations
Recommendation #1: Establish a point of contact, email address, or contact number for
TSA managers to follow up on the status of employees who require Top Secret and
Sensitive Compartmented Information investigations or reinvestigations.

Recommendation #2: Provide TSA Assistant Administrators who have employees with
pending Top Secret and Sensitive Compartmented Information investigations and
reinvestigations with monthly statistics on the number of cases pending, number of
days cases have been in the system, and current backlog when applicable.

Recommendation #3: Provide the Adjudication Center sufficient Federal employees to
establish internal control over operations and reporting requirements.

Recommendation #4: Develop a restructuring plan to enhance operational
effectiveness in the Secure Flight Operations Center staffing model.

Recommendation #5: Coordinate with both the Director of TIM and the Director of
legacy TTAC Technology and oversee the development of the TIM data system and the
decommissioning of legacy TTAC data systems.

Recommendation #6: For a minimum of 2 years, direct legacy TTAC offices to refer all
personnel-related complaints, grievances, disciplinary actions, investigations, and
inspections to appropriate TSA or DHS offices with primary oversight responsibility.

Recommendation #7: Provide employees a Know Your Rights and Responsibilities
website and brochure that compiles appropriate directives on conduct, processes, and
redress options.

Recommendation #8: Establish an independent review panel reporting to the Office of
the Chief Human Capital Officer through which legacy TTAC employees may request a
review of desk audits and reassignments.




www.oig.dhs.gov                          39                                OIG-13-05
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix C
Management Comments to the Draft Report
                                                                       U.S, Dtp.r1mtnt of Hom ~land StctJ rity
                                                                       601 South 12th Street
                                                                       Arlington, VA 20598


                                                                       Transportation
                                                                       Security
                                                                       Administration



      OCT' 2 2012


                                         INFORMATION


  MEMORANDUM FOR:              Charles K. Edwards
                               Acting Inspector Generay

  FROM:                        John S. PistOlc~ ~
                               Administrator   \j
  SUBJECT:                     Transportation Security Administration's (TSA) Response to
                               U.S. Department of Homeland Security (DHS) Office of Inspector
                               General 's (OIG) Draft Report Titled Personnel Security and
                               Internal Control at TSA '.I' Legacy Threat Assessment and
                               Credentialing Office - For Official Use Only, OIG Project
                               No.12-049-ISP-TSA-A


  Purpose

  This memorandum constitutes TSA's formal Agency response to the DHS OIG draft report
  Personnel Security and Internal Control at TSA '.1' Legacy Threat Assessment and Credenlialing
  Office. TSA appreciates the opportunity to review and provide comments to your draft report.

  Background

  In February 2012, OIG began a review ofTSA 's Personnel Security practices and management
  controls in the legacy offices of the former Threal Assessment and Credentialing Office (TTAC).
  OIG ' s objecti ves were to determine whether ITAC employees ha ve: (l ) position descriptions
  that reOecl authority and responsibility levels accurately; (2) a personnel security screening
  process that complies with Federal laws, regulations, policy, and guidance; and (3) adequate
  internal controls on workplace activities. OIG conducted its fieldwork from February 2012 to
  July 2012.



www.oig.dhs.gov                                 40                                           OIG-13-05
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Discussion

TSA welcomes the OIG review of the Personnel Security and legacy TTAC programs. Overall ,
the OIG recommendations will help TSA to continue to improve and to implement more
effect ive programs. We COnCur with many of the recommendatio ns and have already taken steps
to address them. What follows are TSA's specific responses to the recommendatio ns contained
in OIG's report.

Recommendation #1: Establish a point of contact, e-mail address, or contact number for TSA
managers to follow up on the status of employees who require Top Secret and Sensitive
Compartmented Information investigations or reinvestigations.

TSA Response: Concur. The Personnel Security Section (PerSec) has established a homepage
On the TSA intranet (iShare) as the primary source of information for stakeholders requiring
infornlation or assistance with security clearance requests or other PerSec products and services.
In addition to points of contact, e-mail addresses, and phone numbers, the homepage provides
infomJation regarding PerSec forms and documents, reference material s, and Frequently Asked
Questions. Portable Document Format (PDF) screenshots of the PerSec home and contact
information pages are attached . TSA considers this recommendation closed and implemented.

Recommendation #2: Provide TSA Assistant Administrators who have employees with pending
Top Secret and Sensitive Compartmented Informat ion investigations and reinvestigations with
monthly statistics on the number of cases pending, number of days cases have been in the system,
and current backlog when applicable.

TSA Response: Concur. In December 2012, PerSec will begin using the DHS electronic
Integrated Security Management System (ISMS) to record and manage all background
investigation and security clearance information. ISM S functionalities will allow for automatic,
timely notifications and/or updates to stakeholders, as well as to ortiees within TSA that do not
currently have access to PerSec information. Pending final transition to ISMS, interim measures
have been implemented to provide case statuses th rough "tickl er" repo rts. Examples of recent
reports provided to TSA leadership are attached. TSA considers this recommendatio n closed and
implemented .

 Recommendation #3: Provide the Adjudication Center sufficient Federal employees to
 establish internal control over operatio ns and reporting requirements.

 TSA Response: Concur. TSA Office of Law Enforcement/Federal Air Marshal Service
 (OLE/FAMS) is pursuing efforts to increase the number of federal employees assigned to the
 Security Threat Assessment Office.

 OIG Recommendation #4: Devel op a restructuring pl an to enhance operational effectiveness in
 the Secure Flight Operations Center staffing model.

 TSA Response: Concur. The Secure Flight Operations Center (SOC) has made significant




www.oig.dhs.gov                                 41                                     OIG-13-05
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


 changes and implemented new programs and schedules since the OIG audit was conducted to
 address many of the areas identified in the audit. These modifications include changes to the
 schedule based on employee feedback, structural changes to improve communication and
 enhance career and role progression, internal and external training programs to support in-
 position refresher courses and knowledge development opportunities, and more structured use of
 employee overlap time. Spec ific modifications include:

    •    The ex isting schedule was modified to remove the 4-month rotational set that occurred
         every 2 months due to a switch from front-half to back-half of the week. The schedule
         was redesigned to ensure a fair and equitable distribution across the workforce of work
         requiring differential pay. Additionally, the order of the ro tation was changed to better
         address people's natural sleep and rhythm schedules.
    •    The SOC has implemented a regimented in-position training program. A training matrix
         was published in August 2012 that identifies training speci fic to job skills and operations.
         The SOC will also be implementing a Learning Series to provide refresher training during
         overlap times by the end of Calendar Year 2012. The SOC implemented a robust and
         simple shift swap program in April 2012 to support the needs of the workforce for days
         off, to schedule classes, and have time fo r other personal matters while still maintaining
         sufficient operational capacity.
    •    In August 20 12, the SOC announced a new structure and role progression model for
         analyst positions consistent with the career progression goals ofTSA and the Office of
         Intelligence and Analysis.
     •   SOC is currentl y in the final planning phase for a redesign of the Customer Support
         Agent (CSA) area in the Annapolis Junction Operations Center, which will alleviate
         overlap spacing issues.
     •   Distribution of call volume and manual review volume is relatively consistent across a
         24-hour period and drives scheduling and staffing in the SOC. While a multitude of
         scheduling options are used in the Federal Government operations center environment,
         the Modified 4-3 10 hour schedule used by the SOC supports current operations. The
         SOC will continue to conduct periodic review of the schedule based on workload and
         feedback of SOC personnel.
     •   Regarding the supervisory structure, all analysts have on-site supervision and Watch
         Managers have either a first- or second-line supervisor co-located with them. There are
         five CSAs on each team and they are supervised by a single supervisor at one of the
         locations. Supervisory CSAs conduct bi-annual site visits; regular video teleconference
         meetings; daily, real-time communications through instant messaging groups; and quality
         control reviews of calls through the Remedy system. Given the findings, the SOC will
         explore additional ways to support cross-site supervision or exanline alternative
         supervisory structures for CSAs to determine if there is a better and more efficient
         method of supervision.

 OIG Recommendation #/5: Coordinate with both the Director of TIM and the Director of
 legacy TTAC Technology and oversee the development of the TIM database and the
 decommissioning oflegacy TT AC databases.




www.oig.dhs.gov                                    42                                        OIG-13-05
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


 TSA Response : Concur. At the direction of the Assistant Administrator (AA) for the Office of
 Intelligence and Analysis (OIA), Tech nology In tTastructure Modernization (TIM) and
 Technology Solutions Division (TSD) senior managers initiated a plan to put protocols in place
 that will ensure the divisions maxi mi ze the resources in both organizations and effectively
 SUpp0l1 the successful design and development of the TIM system. To a great degree, it wil l
 follow the model successfull y applied to mher design, development, and implementation efforts.

 In addition, the Assistant Administrator for OIA chai rs a monthl y Exec utive Steering Committee
 Review, a monthly Program Management Review, and biweekly teleconference calls. These
 mea 'ures enable key DHS and TSA stakeholder organizations to provide input and oversight
 during the development of the TIM system.

  Recommendation #6: For a minimum of 2 years, direct legacy TTAC offices to refer all
  personnel related complaints, grievances, disciplinary actions, investigations, and inspections to
  appropriate TSA or DHS offices with primary oversight responsibi lities.

  TSA Response: Concur, except that it is unnecessary to include a 2-year time frame. Any
  matter affecting a 1TAC legacy office relating to complaints, grievances, disciplinaryladverse
  actions, investigations, or inspect ions will be handled and resolved under the provisions outlined
  in TSA management directives and pol icies. In accordance with these di rectives, responsibility
  for certain actions resides within the employee's management chain. In such limited instances,
  the restructuring, including changes in management personnel, ensures fair and impurtial
  handling of such actions. Additionally, the measures out lined in TSA ' s Response to
  Recommendation 7 provide additional means of safeguarding employee rights.

  The time limitation noted in the recommendation is not necessary as this implies that after
  2 years, the provisions of the related directives and policies will not apply. The provisions of the
  directives and policies are in effect indefinitely for all TSA employees, includi ng employees in
  the legacy ITAC offices.

  Recommendation # 7: Provide employees a Know Your Rights and Responsibilities Web site
  and brochure that compile appropriate directives on conduct, processes, and redress options.

  TSA Response: Concur. TSA Office of Civil Rights & Liberties, Ombudsman, & Traveler
  Engagement (CRUOTE) will collaborate with all relevant offices to assess the current
  infonoational medium to implement direct access to pertinent infomlation for all employees on
  their rights and responsibilities. CRUOTE will implement a new "Know Your Rights and
  Responsibilities" Web site and brochure that compiles appropriate directives on conduct,
  eligibil ity to file complaints, complaint processes, direct contact information, and redress
  options, with final action to be completed on November 22, 2012.

  Recommendation #8: Establish an independent review panel reporting to the Office of the
  TSA Administrator through which legacy ITAC employees may request a review of desk audits
  and reassignments.




www.oig.dhs.gov                                  43                                       OIG-13-05
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


 TSA Response: Non-concur. The Recommendation provides that: "Aggregating cases may
 enable TSA to identitY pattems or practices of unfair decisions. More important, creating an
 independent review panel would promote objective and defensible decisions." TSA does not
 concur with this recommendation because multiple level s of controls in existing policy and
 procedures ensure independence and objectivity in the classification process. Per TSA
 Management Directive (MOl No. 1100.51·1 , Position Management and Position Classification,
 the Omce of Human Capital (OHC) is the sole office responsible for making position
 classification determinations. OHC is required to apply the specific process and use the
 established standards detailed in the TSA Handbook /0 MD No. 1100.51·1 for all classification
 reviews. Existing policies and procedures ensure that OHC actions and decisions are uniformly
 administered across all program offices and positions, and are independent of extemal influence.
 The data collection process used by OHC is inclusive, with multiple opportunities for input and
 verification by employees and managers to ensure that OHC accurately understands each
 position's responsibilities and technical knowledge requirements. Validated information is
 evaluated against the established standards documented in the TSA Halldbook fo MD
 No. 1100.51·1 to make classification determinations. Material changes to current classifications,
 such as a Change to Lower Band (CLB), often undergo secondary peer review, and all cases are
 reviewed by OHC management. Each determination resulting in a CLB is subject to multiple,
 escalating checks for compliance with process, including analysis, and documentation
 requirements designed to guarantee independence, objectivity, and thoroughness before reaching
 the OHC/AA for signature . In addition, TSA MD No. 1100.51·1 provides employees affected by
 a CLB the right to reply to the classification decision, which is reviewed by the ANOHC before
 a final decision is made. Further, upon completion of this rigorous internal process, employees
 whose positions undergo a CLB have the right to seek external redress by appealing to the Merit
 Systems Protection Board (MSPB).

 TSA disagrees with the concept of a separate process specifically for legacy TTAC employees
 that would not be extended to other staff, as this would be an unequal application of position
 management and position classification rules without legitimate cause. Establishment of such a
 process for legacy TTAC employees would result in an unequal application of position
 management and position classification rules without legitimate cause. At the same time,
 extending the proposed independent review panel to cover all legacy TT AC employees affected
 by reclassification would create an additional , unnecessary layer of review on top of the internal
 and external review avenues already in place, with affects rangi ng from delaying an already
 extensive process to undermining the OHC's position as TSA's personnel management aut hority.
 TSA believes that the provisions of MD 1100.51 ·1 and the associated Handbook effectively
 afford legacy IT AC and all other affected employees faimess and equity in position management
 and classification.

 Attachments




www.oig.dhs.gov                                 44                                      OIG-13-05
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Appendix D
GAO Standards for Internal Controls
GAO’s Standards for Internal Control in the Federal Government provides five standards
for effective internal control.37

                                       GAO Standards for Internal Control
             Control Environment
             Management and employees should establish and maintain an environment throughout the
             organization that sets a positive and supportive attitude toward internal control and
             conscientious management. Examples:
                 • Integrity and ethical values maintained and demonstrated by management and staff
                 • Management’s commitment to competence
                 • The manner in which the agency delegates authority and responsibility
                 • Sound human capital policies and practices
             Risk Assessment
             Internal control should provide for an assessment of the risks the agency faces from both
             external and internal sources. Examples:
                  • Clear, consistent agency objectives
                  • Identification and analysis of risks
             Control Activities
             Internal control activities help ensure that management's directives are carried out. The
             control activities should be effective and efficient in accomplishing the agency’s control
             objectives. Examples:
                  • Performance reviews
                  • Management of human capital
                  • Controls over information processing
                  • Segregation of duties
                  • Documentation of transactions and events
             Information and Communications
             Information should be recorded and communicated to management and others within the
             entity who need it and in a form and within a time frame that enables them to carry out their
             internal control and other responsibilities. Examples:
                  • Operational and financial data
                  • Information flowing down, across, and up in the organization
             Monitoring
             Internal control monitoring should assess the quality of performance over time and ensure
             that the findings of audits and other reviews are promptly resolved. Examples:
                  • Ongoing monitoring during normal operations
                  • External evaluation of controls




37
     Ibid., pp. 8–21.


www.oig.dhs.gov                                        45                                        OIG-13-05
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix E
Major Contributors to This Report
      Marcia Moxey Hodges, Chief Inspector
      Lorraine Eide, Lead Inspector
      Heidi Einsweiler, Inspector
      Morgan Ferguson, Inspector




www.oig.dhs.gov                        46                   OIG-13-05
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix F
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Administrator, Transportation Security Administration
Undersecretary for Management
TSA Audit Liaison
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                           47                            OIG-13-05
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
